<html>
<title> - H.R. 2963, TO ESTABLISH THE DEEP CREEK WILDERNESS AREA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
        H.R. 2963, TO ESTABLISH THE DEEP CREEK WILDERNESS AREA
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 16, 2001

                               __________

                           Serial No. 107-67

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                           U.S. GOVERNMENT PRINTING OFFICE
75-726                           WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 16, 2001.................................     1

Statement of Members:
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia, Prepared statement of..........     4
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................     4

Statement of Witnesses:
    Kimbell, Abigail, Acting Associate Deputy Chief, Forest 
      Service, U.S. Department of Agriculture....................     6
        Prepared statement of....................................     7
        Chart submitted for the record...........................     9
    Martin, John, County Commissioner, Garfield County, Colorado.    14
        Prepared statement of....................................    15
    Smith, Steven W., Associate Regional Representative, Sierra 
      Club, on behalf of the Colorado Wilderness Network.........    17
        Prepared statement of....................................    19
        Letters submitted for the record.........................    22
    Stone, Tom C., Eagle County Commissioner, State of Colorado..    32
        Prepared statement of....................................    32
        Resolution submitted for the record......................    34
    Treese, Christopher J., External Affairs, Colorado River 
      Water Conservation District, Colorado Springs, Colorado....    16
        Prepared statement of....................................    16

Additional materials supplied:
    Best, Joel E., Commander, High-altitude ARNG Aviation 
      Training Site, Letter submitted for the record.............    42


     LEGISLATIVE HEARING ON H.R. 2963, TO ESTABLISH THE DEEP CREEK 
                WILDERNESS AREA, AND FOR OTHER PURPOSES

                              ----------                              


                       Tuesday, October 16, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 5:05 p.m., in 
Room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.

 STATEMENT OF HON. SCOTT McINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. McInnis. The Subcommittee on Forests and Forest Health 
will come to order. We are meeting today obviously to hear 
testimony on the Deep Creek Wilderness bill.
    I appreciate the understanding of the witnesses who have 
traveled so far. I see several of them there, Chris, Steve, a 
number of others, commissioners that have come down, John, Tom, 
et cetera. You can have a complete understanding, and I am sure 
that you will probably experience it on your way home, in 
regards to the airplanes.
    By the way, my rate to Denver, my flight costs to Denver 
was $165, and Denver to Grand Junction was $365. So we out in 
there, the rural areas, really do get it stuffed to us.
    But we will get back to the bill and off the airlines. 
Anyway, I do appreciate everybody making the effort to come out 
here. I am delighted that we are able to finally bring this 
today for a hearing. This is the first step in what I hope will 
be a quick journey of H.R. 2963 through the House of 
Representatives en route to the Senate and eventually to the 
President's desk.
    I introduced this legislation late last month and called 
this hearing today in hopes of seeing it signed into law before 
the end of the 107th Congress next year. Prior to September 
11th, actually I was in hopes that we could get it done before 
December of this year, but that does not appear to be likely.
    I look forward to working with my colleagues on the 
Subcommittee on Forest Health, the BLM, my friends and 
constituents in western Colorado, including many of whom are 
here today.
    As our witnesses are no doubt aware, Deep Creek has a very 
special place in my heart, as I know it does in those of you 
that have come today and the people that you represent. I grew 
up literally a matter of minutes away from the area and spent a 
great deal of time hiking there as a boy. In fact, most of my 
observations of the canyon were from the top looking down. They 
were not from the ability to go into the canyon, although I 
have been up into the canyon and climbing up.
    So I think it is a very critical point in this bill that we 
allow other people the same privilege that I had, and that was 
that I had motorized access, and I was able to go to the rim of 
the canyon and look down into that canyon and see what it was. 
If I would have been restricted as a small boy to take 
horseback up in there, I probably wouldn't have been--I 
probably would have been 14 or 15 before I would have had the 
capability to ride a horse up into that country and certainly 
to hike up into that country. To see what I saw as a very young 
man would not be possible without the access that I intend to 
protect with this bill, which is the result of the compromise 
that we have put together for this bill.
    In fact, when my scheduled allows, I like to head back up 
there and enjoy the majestic views of Deep Creek's wild and 
pristine forest. I want to add one other sentence here; that 
is, that most people that are going to get to see Deep Creek 
are not going to be the hearty young people. Most of the people 
that get to see Deep Creek are the ones that are going to be 
able to have motorized access to get up to the edge and look 
down into this beautiful area, or those who can afford to 
charter an airplane and circle Deep Creek, which I have done on 
several occasions. I think it is very important because of the 
beauty, the intense beauty of this land, that as many people as 
possible be allowed to have the privilege that all of us have 
had, and that is that kind of observation.
    These lands are special for reasons that are far more 
important than the relative proximity to my hometown. Deep 
Creek is truly one of Colorado's wildland wonders. It is a 
natural treasure that deserves special congressional 
protection. When our predecessors on this Committee first 
drafted the Wilderness Act over three decades ago, there is no 
question it had places like Deep Creek in mind.
    Together we begin the process of considering wilderness 
designation for this special place. Like any proposed 
wilderness designation, this is not without some complications. 
There are some who would like to continue to expand the 
boundary substantially beyond the upper rim of the Deep Creek 
Canyon as called for in H.R. 2963, this in spite of the fact 
that in 1998 some of Colorado's most respected conservationists 
outlined a wilderness plan for Deep Creek with boundaries 
nearly identical to those proposed in my legislation.
    I should add that this piece of legislation is the result 
of lots of compromise on behalf of lots of people, and I 
realize that on one side or the other there will be people who 
want to continue to move the goal line. But it is my intent to 
stay with the compromise that this bill reflects, and, again, 
to be repetitive, but nonetheless important, that these comply 
with the boundaries that are almost identical to those of the 
1998 so-called wilderness plan.
    In addition, there are some who are less than pleased with 
the tough language in the bill protecting Colorado water 
rights. Clearly my precedent has been in the past, and let me 
make it clear, I am willing to listen to substantial 
suggestions on this point, but I am not going to throw the door 
wide open. In fact, I will even go further than that. When it 
comes to water rights, that door will remain tightly closed. 
The water rights of Colorado are the primary issue that I am 
concerned about on any wilderness designation. And, as many 
people know, water in Colorado is equivalent to blood, and once 
we give those water rights or endanger those water rights in 
any manner whatsoever in the future, it will be next to 
impossible to reclaim them.
    That said, I look forward to working with those who have an 
interest in the water rights issue, including the State of 
Colorado, the Forest Service and our witnesses here today.
    Finally, there are some who have raised concerns about the 
Colorado Army National Guard continuing its years-long practice 
of conducting aerial training exercises on Deep Creek under 
wilderness designation. It is my understanding from all sides 
that the Colorado National Guard has been both an able and 
conscientious steward of this resource during its time training 
there, and has conducted its exercise in a manner that has no 
appreciable impact on the landscape. This training is 
absolutely critical and as should clearly be demonstrated by 
the sacrifice that people are making today in mountainous 
terrain in Afghanistan. Who knows, some of those people may 
have got their training in our Colorado mountains.
    I can tell you that during my tenure in Congress, I have 
never had one complaint, never a letter, never a phone call, 
never a conversation complaining against the Colorado Air 
National Guard in regards to their flight service in Eagle. In 
fact, every time we have a plane missing up there, we need a 
rescue, they are the first people we call to go in and do 
rescue and assist us with the helicopters, and fortunately they 
have been very good about doing that.
    While disagreement over these issues is real, although I 
think really the disagreement that we have here is pretty 
minimal, I nevertheless am confident that the good faith 
negotiations that we have put forth so far have yielded a 
consensus-oriented agreement in a bill, just as we did last 
year with our Colorado Canyons Wilderness bill and just as we 
did most recently with Mr. Udall's James Peak legislation.
    I believe our sheer desire to see this natural jewel 
preserved and protected will ultimately prevail.
    I thank our witnesses for coming today and I look forward 
to their comments.
    [The prepared statement of Mr. McInnis follows:]

Statement of Honorable Scott Mcinnis, Chairman, Subcommittee on Forests 
                           and Forest Health

    I'm delighted to convene this legislative hearing on HR 2963, the 
Deep Creek Wilderness Act. Today's hearing is the first step in what I 
hope will be a quick journey for HR 2963 through the House of 
Representatives en route to the Senate and eventually to the 
President's desk. I introduced the legislation late last month, and 
called this hearing today, in hopes of seeing it signed into law before 
the end of the 107th Congress next year. I look forward to working with 
my Colleagues on the Subcommittee, the Forest Service, the BLM and my 
friends and constituents in western Colorado -- including John, Tom, 
Chris and Steve who are here to testify today in pursuit of that 
objective.
    As our witnesses are no doubt aware, Deep Creek has a special place 
in my heart, as I know it does in their's. I grew-up literally a matter 
of minutes away from the area, and spent a great deal of time there 
hiking as a boy. In fact, when my schedule allows, I still like to 
head-up there and enjoy the majestic view of Deep Creek's wild and 
pristine forests.
    But these lands are special for reasons far more important than 
there relative proximity to my hometown. Deep Creek is truly one of 
Colorado's wildland wonders; it's a natural treasure that deserves 
special Congressional protection. When our predecessors on this 
Committee first drafted the Wilderness Act over three decades ago, 
there's no question that it had places like Deep Creek in mind.
    Today, we begin the process of considering Wilderness designation 
for this special place. Like any proposed Wilderness designation, this 
one is not without some complications. There are some who would like to 
expand the boundaries substantially beyond the upper rim of Deep Creek 
canyon, as called for in HR 2963. This, in spite of the fact that in 
1998 some of Colorado's most respected conservationists outlined a 
Wilderness plan for Deep Creek with boundaries nearly identical to 
those proposed in my legislation. I would submit that if it was good 
enough in 1998, it's good enough today. In addition, there are some who 
are less than pleased with the tough language in my bill protecting 
Colorado water rights. Let me be clear: I am willing to listen to 
substantive suggestions on this point, but I'm not going to throw the 
door wide-open to a host of new federal reserved water rights in 
conjunction with this designation. That said, I look forward to working 
with those who have an interest in this water rights issue including 
the State of Colorado, the Forest Service and our witnesses here today 
in working out a solution that hopefully I say hopefully is agreeable 
to all sides. Finally, there are some who have raised concerns about 
the Colorado Army National Guard continuing its years-long practice of 
conducting aerial training exercises in Deep Creek under a Wilderness 
designation. It's my understanding from all sides that the Colorado 
National Guard has been both an able and conscientious steward of this 
resource during its time training there, and has conducted its 
exercises in a manner that has had no appreciable impact on the 
landscape. During this hour of international conflict, I think the last 
thing any of us want is to undermine the training operations of our 
military, particularly training exercises like those in question here 
that closely replicate the rugged and harsh conditions now confronting 
our military in its conflict abroad.
    While disagreement over these issues is real, I'm nonetheless 
confident that good-faith negotiations will yield a consensus-oriented 
agreement, just as it did last year with our Colorado Canyons 
Wilderness bill and just as it did most recently with Mr Udall's James 
Peak legislation. I believe our shared desire to see this natural jewel 
preserved and protected will ultimately overcome any and all 
disagreements we encounter along the way.
    I thank our witnesses for making the trip to Washington for this 
hearing and I look forward to hearing their comments today.
                                 ______
                                 
    Mr. McInnis. Mr. Udall, would you like to make an opening 
statement for the Minority?

STATEMENT OF HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Udall of Colorado. Thank you, Mr. Chairman.
    First I would ask unanimous consent that the statement of 
the Ranking Member Mr. Rahall be included in the record.
    Mr. McInnis. Certainly.
    [The prepared statement of Mr. Rahall follows:]

Statement of the Hon. Nick J. Rahall, a Representative in Congress from 
                       the State of West Virginia

    H.R. 2963, the Deep Creek Wilderness Act, introduced by 
Subcommittee Chairman Scott McInnis, would provide protection to a 
beautiful, spectacularly deep canyon. Yet, protection for the 8,000-
acre narrow gorge will not be permanent if nothing is done to protect 
the uplands and watershed.
    Another bill, H.R. 944, introduced by Representative Diane DeGette, 
would designate 22,170 acres in Deep Creek as wilderness, almost three 
times the acreage in H.R. 2963. Unfortunately, H.R. 944 is not the 
subject of this hearing, even though it was introduced in March, six 
months before the Chairman's bill was introduced.
    The Colorado Wilderness Network, comprised of environmental 
organizations, businesses, and local governments, supports the acreage 
designation for Deep Creek in Representative DeGette's bill. I am 
advised that snowmobiling in some areas is the only existing use that 
would be prohibited if 22, 170 acres were designated as wilderness. I 
also understand that discussions are underway between the Colorado 
Wilderness Network and snowmobiling interests to craft a compromise. I 
encourage these discussions to continue so that we can enact a bill 
that enjoys widespread support.
    I also would like to highlight three additional concerns with the 
bill:
    The first has to with overflights and landings in the proposed 
wilderness area. Section 5 would codify a memorandum of understanding 
between the Forest Service, Bureau of Land Management and Colorado Army 
National allowing for overflights in proposed wilderness. As the Forest 
Service points out in its testimony, the Colorado Army National Guard 
conducts training exercises in the Deep Creek area between Thanksgiving 
and Memorial Day. Not only does the Colorado Army National Guard fly 
over the proposed wilderness area, but it also lands in Deep Creek as 
many as four times a week. Routine helicopter landings are 
inappropriate in a wilderness area. I look forward to working with the 
Forest Service, BLM and Colorado Army National Guard to more fully 
understand the use of the area. We need to find out if there are other 
appropriate areas for such exercises to occur.
    H.R. 2963 also expressly denies the Forest Service and BLM any 
reserved water right for the wilderness area. While there are no water 
rights in the proposed wilderness, there are perfected and conditional 
water rights upstream and on streams tributary to Deep Creek that have 
the potential to affect the proposed wilderness. Future water uses 
upstream have the potential to dewater the proposed wilderness. In its 
testimony, the Forest Service recommends that we work with the Colorado 
Water Conservation Board to develop language to protect the water 
resource values of the proposed Deep Creek wilderness. I think this is 
a good suggestion and look forward to working on this.
    Finally, several provisions of the bill are confusing and 
contradictory to the establishment of the area as wilderness. The bill 
appears to be a cut and paste of wilderness legislation and national 
conservation area legislation. Standard language ensuring that the 
wilderness lands designated are managed consistent with the Wilderness 
Act of 1964 is not used in Section 5. We need to ensure that the bill 
is properly drafted before we move forward.
    We need to enact legislation that provides meaningful protection to 
this spectacular area; this bill as introduced does not. I look forward 
to working with the sponsors and others to craft legislation that we 
can all support.
                                 ______
                                 
    Mr. Udall of Colorado. I just want to be very brief, 
because I want to hear the testimony of the witnesses. I wanted 
to welcome my fellow Coloradans who are here. Your 
understanding and expertise in dealing with this beautiful area 
is going to be very helpful as we move ahead.
    I do want to educate myself further about some of the 
details of the legislation and look forward to asking some 
questions so that I can understand it better, and I want to 
work with everybody involved to resolve any problems and see if 
we can find a way to give appropriate additional protection to 
these lands.
    With that, Mr. Chairman, I would yield back.
    Mr. McInnis. Thank you. We will go to our witnesses. We 
have two panels today, and, first of all, Abigail Kimbell, our 
Acting Associate Deputy Chief. She came from Colorado.
    Thank you very much. I should have noticed you. I 
appreciate your service, by the way. Thank you for your 
efforts, and you may proceed.
    As you know, on this Committee we have a 5-minute rule, and 
in light of the fact that we are going to have votes here 
pretty soon, I would ask that people respect that rule, and 
that would also allow some questioning by the panel.
    Thank you again. You may proceed.

 STATEMENT OF ABIGAIL KIMBELL, ACTING ASSOCIATE DEPUTY CHIEF, 
                      USDA, FOREST SERVICE

    Ms. Kimbell. Thank you, Congressman.
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to discuss H.R. 2962, the Deep Creek Wilderness 
Act. We appreciate the Committee's interest in protecting the 
unique resources in Deep Creek.
    Deep Creek is located on lands managed by the United States 
Forest Service and the Bureau of Land Management. In 1995, the 
Forest Service and the Bureau of Land Management issued a joint 
determination that Deep Creek was eligible for designation 
under the Wild and Scenic Rivers Act.
    We acknowledge wilderness designation for Deep Creek as 
being consistent with those recommendations that Deep Creek be 
managed as a wild river. Deep Creek has long been recognized 
for outstanding features such as the ones you mentioned, and 
these features were created or exist because of riparian and 
water-related values. These include high-quality, scenic, 
natural and pristine canyon landscape and recreation and 
geologic values associated with cave formation in the canyon.
    Deep Creek is a perennial stream with flows that originate 
mainly from snow in upper elevations of its watershed. A 
statewide survey conducted in 1993 by the Colorado Natural 
Heritage Program identified Deep Creek as containing one of the 
State's most pristine, high-quality occurrences of significant 
riparian communities, including many rare plant species. 
Clearly the water that flows in Deep Creek is a key element in 
the integrity of the ecological system and a key feature of the 
area's scenic qualities and recreation opportunities.
    We are aware of existing perfected water rights and 
conditional water rights. These rights upstream from the 
proposed wilderness exceed the estimated average annual flow 
and even the observed peak flow on this stream. We recommend 
that H.R. 2963 be amended to require monitoring of Deep Creek 
flows, and to work with the Colorado Water Conservation Board 
to protect the water and flow-dependent values of the proposed 
Deep Creek Wilderness.
    As you are aware, the Colorado Army National Guard is 
authorized, under a 1987 memorandum of understanding, to 
conduct aerial navigational training maneuvers over Deep Creek. 
These occur primarily between Thanksgiving and Memorial Day and 
often include landing helicopters within the proposed Deep 
Creek Wilderness up to four times a week. We are always 
concerned with nonconforming uses. We really appreciated that 
section 5(d)(2)((B) specifically recognizes that the MOU could 
be modified, and we are anxious to work closely with the 
Colorado delegation and the Colorado Army National Guard to 
identify needed changes.
    We look forward to working with the Committee and the 
Bureau of Land Management to develop a map with manageable 
boundaries for the Deep Creek Wilderness prior to markup of 
H.R. 2963. We would like to work with the Committee and staff 
on other suggested edits.
    And I want to thank the Congressman for his participation 
in the dedication of the Spanish Peaks Wilderness. You were 
involved from the very start.
    [The prepared statement of Ms. Kimbell follows:]

 Statement of Abigail Kimbell, Acting Associate Deputy Chief, National 
 Forest System, Forest Service, United States Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to discuss the views of the department on H.R. 2963, the 
Deep Creek Wilderness Act. I am Abigail Kimbell, Acting Associate 
Deputy Chief for the National Forest System, USDA-Forest Service. We 
appreciate the Committee's interest in protecting the unique resources 
in Deep Creek.
    Deep Creek is located in the State of Colorado largely within the 
White River National Forest and on lands managed by the Bureau of Land 
Management. In 1995, the Forest Service and the Bureau of Land 
Management issued a joint determination that Deep Creek was eligible 
for designation under the Wild and Scenic Rivers Act. All the 
alternatives considered in the draft White River National Forest Plan 
Revision recommend that this area be managed as a Wild River eligible 
for Wild and Scenic River designation. These recommendations were 
developed after thorough public involvement and with widespread public 
support.
    We acknowledge wilderness designation for Deep Creek as being 
consistent with these recommendations that Deep Creek be managed as a 
Wild River eligible for inclusion in the Wild and Scenic River System. 
Wilderness designation is also consistent with the current Deep Creek 
inventoried roadless area wilderness evaluation that rated the area 
high in its opportunities for solitude, naturalness, and manageability 
as wilderness. We have some concerns, however, with specific provisions 
of H.R. 2963 as it is presently drafted.
    Deep Creek has long been recognized for outstanding features and 
special qualities that were created or exist because of riparian and 
water-related values. These include high quality natural communities; 
scenic, natural, and pristine canyon landscapes; and recreational and 
geologic values associated with cave formations in the canyon. Deep 
Creek is a perennial stream with flows that originate mainly from snow 
in the upper elevations of its watershed. Its clear water, relatively 
high but stable flows, and diverse channel morphology provide good to 
excellent aquatic habitat and riparian values. A statewide survey 
conducted in 1993 by the Colorado Natural Heritage Program identified 
Deep Creek as containing one of the State's most pristine, high quality 
occurrences of significant riparian communities, including many rare 
plant species. Deep Creek provides excellent habitat for re-
establishing a population of native Colorado River cutthroat trout.
    Clearly, the water that flows in Deep Creek is a key element in the 
integrity of the ecological system and a key feature of the area's 
scenic qualities and recreation opportunities. We recommend that 
Section 2(b), Purpose, recognize water and flow dependent resources as 
important resources to ``conserve, protect, and enhance.''
    A brief analysis of the current water rights in the Deep Creek 
drainage shows that none of these existing rights appear to be located 
in the proposed wilderness, although there are water rights upstream 
and on streams tributary to Deep Creek that affect or have the 
potential to affect flows in the proposed wilderness. Deep Creek's 
waterway is largely unmodified.
    We are aware of existing perfected water rights and understand the 
status quo of how water is withdrawn from this system. We are also 
aware of conditional water rights. These rights, upstream from the 
proposed wilderness, total 390 cfs, and far exceed the estimated 
average annual flow (50 85 cfs), the estimated high flows (100-200 
cfs), and even the observed peak flow (250 cfs) on this stream. 
Developing these conditional rights would impact streamflow and the 
flow dependent resources that contribute to the uniqueness and the 
value of Deep Creek. We recommend that HR 2963 be amended to require 
monitoring of Deep Creek flows and, where necessary, to work with the 
Colorado Water Conservation Board to protect the water and flow 
dependent values of the Deep Creek Wilderness.
    In addition, we recommend that HR 2963 be amended so the Forest 
Service, working with the Colorado Water Conservation Board, has the 
opportunity to protect the critically important water and flow 
dependent resource values of the proposed Deep Creek Wilderness. We 
would be pleased to work with the Committee in revising the section of 
HR 2963 concerning water.
    As you are aware, The Colorado Army National Guard is authorized 
under a 1987 Memorandum of Understanding to conduct aerial navigational 
training maneuvers over Deep Creek. These training exercises occur 
primarily between Thanksgiving and Memorial Day and often include 
landing helicopters within the proposed Deep Creek Wilderness up to 
four times a week. It is unclear whether Section 5(d)(2) of H.R. 2963 
allows these exercises to continue. We are concerned about allowing 
such a non-conforming use to continue within a designated wilderness. 
In this regard, we appreciate that Section 5(d)(2)(B) specifically 
recognizes that the MOU may be modified. If HR 2963 is enacted, we 
would work closely with the Colorado delegation and the Colorado Army 
National Guard to identify needed changes.
    The Wilderness Act of 1964 defines wilderness to be a place without 
permanent improvements or human habitation. Forest Service policy is to 
provide facilities and improvements only for the protection of the 
wilderness resource. In order to protect the wilderness characteristics 
of Deep Creek, the department suggests that Section 5(i) be clarified 
to provide minimal interpretive facilities, such as information kiosks 
or trailhead signs outside the wilderness boundary.
    We look forward to working with the Committee and the Bureau of 
Land Management to develop a map with manageable boundaries for the 
Deep Creek Wilderness prior to markup of HR 2963.
    We would like to work with the Committee and staff on other 
suggested edits including recommendations that certain sections be 
modified or deleted to avoid redundancy or possible confusion resulting 
from multiple laws addressing the same issue.
Summary
    In closing, we appreciate the Committee's interest in providing 
present and future generations with the benefits of an enduring 
resource of wilderness. We look forward to working with the Committee 
and the Bureau of Land Management to address our concerns. Deep Creek 
is truly a unique and special place that meets the criteria for 
wilderness and wild and scenic river preservation, and is deserving of 
protection for all Americans.
    This concludes my prepared statement. I would be happy to answer 
any questions you or other members of the Committee may have.
                                 ______
                                 
    [An attachment to Ms. Kimbell's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 75726.001
    
    Mr. McInnis. I am going to go ahead and begin with a couple 
of questions and a couple of points I want to make.
    As you know from the language that with the Army Air 
National Guard, that it requires agreement by both sides for 
modification of the agreement. It is my intent to preserve 
their right to utilize that, but balance it out with the 
modification--the MOU so either side has to get an approval of 
the other.
    The other--and I am not aware of any damage or any kind of 
negative impact on Deep Creek's areas as a result of these 
helicopter training exercises. Are you, other than the fact 
that you may not--other than the fact that the Forest Service 
doesn't like that, that they are a noncompliant use?
    Ms. Kimbell. The Wilderness Act generally precludes the 
landing of aircraft within wilderness areas.
    Mr. McInnis. You have not had any indication of any damage 
as a result of those helicopters?
    Ms. Kimbell. No, I have not.
    Mr. McInnis. The other thing, then, I will move on to my 
colleagues up here. We are talking about these water rights. 
Are you aware--I mean, are the water rights of the Colorado 
Water Conservation Board--do they have water rights up there? 
Have you looked at that?
    Ms. Kimbell. Yes, I have.
    Mr. McInnis. I believe that they have some in-stream water 
rights in there as well.
    Ms. Kimbell. Yes, sir.
    Mr. McInnis. That currently exist.
    Ms. Kimbell. The CWBC has existing flows designated.
    Mr. McInnis. My point is, I just want to make sure that 
other people that read this testimony are aware that we have 
taken conscientious efforts in the past toward the preservation 
of that area in regards to the water, but we have just got to 
be very careful as to not endanger any water rights for the 
people of Colorado.
    With that I will go ahead and yield to Mr. Udall if he has 
any questions.
    Mr. Udall of Colorado. Thank you, Mr. Chairman. I do have a 
couple of questions here.
    I think the Chairman discussed aircraft use in the 
wilderness area. Some of the lands covered by the bill are on 
forestlands, of course, managed by the Department of 
Agriculture, and part of the lands, as I understand it, are 
managed by the Bureau of Land Management in the Secretary of 
Interior's portfolio. Is that the case as you understand it?
    Ms. Kimbell. That is correct.
    Mr. Udall of Colorado. Would each agency continue to manage 
their portion after the enactment of the bill?
    Ms. Kimbell. As there is nothing in the bill to preclude 
that, yes.
    Mr. Udall of Colorado. That is the starting point if the 
bill were to become law in regards to the management regime?
    Ms. Kimbell. Yes.
    Mr. Udall of Colorado. Do you see any problem with that 
from your perspective? Do we have examples of where that has 
worked effectively?
    Ms. Kimbell. Actually we do have examples where that works 
very effectively. And, in fact, two agencies conducted a wild 
and scenic river study on Deep Creek several years ago and came 
up with a joint management plan for Deep Creek with the joint 
recommendation.
    Mr. Udall of Colorado. My colleague--and I don't want to 
steal her thunder, but she was asking me a question about 
nonconforming uses in wilderness areas, and if we were in this 
situation to allow a so-called nonconforming use, we may want 
to characterize it in other terms. Does that, in your opinion, 
then open the door for those kinds of uses to be opened and 
extended to other existing wilderness areas?
    Ms. Kimbell. That is at Congress' discretion. And the bill 
as it is written right now addresses specifically the Colorado 
Army National Guard, and it doesn't address any other 
nonconforming uses as we read the bill.
    Mr. McInnis. Mr. Udall, I may add that what it does is just 
the opposite, in my opinion, and, in fact, allows areas that 
come into wilderness, if you think that community up there 
would be supportive of this as a wilderness area if they found 
out that we were going to shut out these helicopters under 
current circumstances--it is the same thing with the Colorado 
Canyons last year. We had several different uses. We had 
mountain bikes. We had horseback. We had river rafters. And 
under the perfect theory, these are all nonconforming uses for 
the natural state of that, but because as we were able to bring 
those in as managed uses, we were able to put it into the 
conservation area. So I think, in fact, allowing this to happen 
is what allows us to get this.
    I can tell you this. If we--at least as long as I am 
Chairman, if we tell these helicopters to get out of there 
today, Deep Creek would not become a wilderness area.
    Mr. Udall of Colorado. Section 5 of the bill says that the 
only uses to be permitted in the wilderness area will be ones 
that the relevant agency, either the Forest Service, or the BLM 
as we discussed earlier, determines will further the purposes 
for which the Wilderness Act is established.
    Doesn't that Act already specify which uses are permitted 
in wilderness areas? And would this part of the bill allow 
either agency to allow some uses that otherwise would be 
prohibited under the Wilderness Act?
    If not, what would be the effect of this provision? I 
apologize for asking you three questions that quickly.
    Ms. Kimbell. The bill references the Wilderness Act 
specifically, and the Wilderness Act allows for some uses and 
doesn't allow for other uses, and unless specifically specified 
in the bill, the Wilderness Act would prevail. Those uses that 
are permitted under the Wilderness Act would be uses that would 
be considered by the managing agencies.
     Mr. Udall of Colorado. So unless the bill specifically 
says so, the Wilderness Act would then determine the activities 
in these areas?
    Ms. Kimbell. Yes. The Wilderness Act would help guide the 
agency in developing the management plans.
    Mr. Udall of Colorado. Section 5(h) deals with non-Federal 
land holdings. Are there any non-Federal land holdings within 
the boundaries of the proposed wilderness area?
    Ms. Kimbell. Not within National Forest lands, no.
    Mr. Udall of Colorado. Do you know by chance about the BLM 
lands, if there--.
    Ms. Kimbell. I don't know. That the--the maps that were 
provided didn't permit us to ascertain that.
    Mr. Udall of Colorado. Okay. Thank you for your testimony.
    Mr. Chairman, I yield back my remaining time.
    Mr. McInnis. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. My question wasn't--to 
Mr. Udall was to understand a little better the history of the 
definition of the word "wilderness" here, because definitions 
truly have a lot of power. And so my concern is not that we 
continue to allow the Guard possibly to use this as training 
exercises, Mr. Chair. That is not the dispute that I have. The 
dispute is using the term "wilderness," calling this a 
Wilderness Act and including that in, and what does that do 5 
or 6 years from now as there is more pressure on some of our 
more traditional use of the term "wilderness" as we use it in 
Minnesota to say, you know, the Wilderness Act allows this to 
happen in this State and this to happen in that State. And so 
there is no reason why we shouldn't be opening up with the 
pressures for the wilderness to be inclusive in Minnesota to 
allow these activities.
    So that is where my question comes, Mr. Chair. So I am just 
kind of wondering if there isn't maybe a more appropriate title 
for the use of land. I was trying to kind of figure that out 
off the record, but I will do it on the record. If you can be 
help me with that, I would appreciate it.
    Ms. Kimbell. Each wilderness area is designated only with 
congressional action, and there is specific enabling 
legislation. It is--even the Boundary Waters Canoe Area in 
Northern Minnesota allows motorized uses. Some do; some do not. 
But it has to be specified in the language in the legislation.
    Ms. McCollum. And, Mr. Chair, maybe I could ask you--Mr. 
Udall or Ms. Kimbell or someone from staff can help me out 
later. I would--I am kind of curious then to how many 
wilderness areas have helicopters in them, or, you know, we 
have two portages up north, and they aren't working, so nobody 
is really using the motors in them anyway.
    Because I think I want to understand the consequences of 
enabling language in certain statutes and the potential for 
that language to be referenced in lands. I will use the 
Boundary Waters just for an example. People would really like 
to helicopter in or something like that 20 or 30 years from now 
and say, well, Congress approves.
    Mr. Chair, maybe you can help me. I am not opposed to the 
helicopters being there. I just want to make sure that we don't 
set a precedent that you and I didn't intend.
    Mr. McInnis. Well, the precedent that has been set, Ms. 
McCollum, is that when Congress originally put together, from a 
historical basis, the opportunity to put wilderness areas, they 
allowed that flexibility built within the statute for people to 
customize these areas.
    For example, in Alaska, you can't move in Alaska without an 
aircraft. So you will find out in their national parks and 
things like that, they have exemptions for aircraft to land in 
places that we would never think of allowing in your parks, 
because you can access your parks. In Alaska you can't do it, 
there aren't roads up there, et cetera, et cetera.
    It is the same thing here. Wilderness, we actually have 
much more areas--if you are interested in wilderness 
accumulation, you are actually having much more accumulation of 
wilderness because there is some flexibility to put in these 
different uses when it is originally drafted by Congress. Once 
this is locked into Congress, then it is almost impossible to 
change in the future. So that flexibility was intentionally put 
in by Congress, and the only precedent it sets is, hey, when 
you put together wilderness, you better realize that it is a 
permanent lock, albeit Congress could overturn it, but in 
reality they won't.
    So you better get everything right when you first put it 
together and take into consideration everybody's needs up 
there, which is exactly what we have done and come up with this 
compromise bill on Deep Creek.
    We better move on. We are going to get hit with votes 
before we have our other witnesses.
    Mr. Udall of Colorado. Would the gentlelady yield?
    Just for the record, Mr. Chairman, in the special 
provisions section of the Wilderness Act it says that, section 
D, the following special provisions are hereby made. Within 
wilderness areas designated by this act, the use of aircraft or 
motorboats where these uses have already become established may 
be permitted to continue subject to such restrictions as the 
Secretary of Agriculture deems desirable. In addition, such 
measures may be taken as may be necessary in the control of 
fire, insects and diseases, subject to such conditions as the 
Secretary deems desirable.
    That is an important part of the Wilderness Act, and I 
think we need to continue our discussion as to what that really 
means not only when it comes to this legislation, but other 
wilderness legislation pending.
    Mr. McInnis. Mr. Udall, what that applies to is if you have 
a wilderness area currently in existence right now that does 
haven't an exemption, for example firefighting, then that is 
what that applies to.
    All we need here are 218 votes to customize a wilderness 
bill. That is exactly what we are doing with Deep Creek, for 
example. That is exactly what we did with the Colorado 
Conservation Area. There is no prohibition in statute that 
says, hey, as a Congress you can't create a wilderness area, 
that says you allow portage or whatever you call it up in 
Minnesota, or you allow planes to land in Alaska or whatever, 
et cetera.
    Mr. Udall of Colorado. I think the point I am trying to 
make is there is some consistency between what you are 
proposing and at least what the initial clauses and conditions 
in the Wilderness Act stipulated.
    Mr. McInnis. Thank you, Abigail. We appreciate it very 
much. We need to move on so we can get our second panel.
    Welcome, Mr. Inslee, the Ranking Member. We are going to 
move on. Your remarks were introduced, put into the record.
    Mr. McInnis. Our second panel, Mr. John Martin. John, thank 
you very much. I know that you have put a lot of time and 
effort into this, lots of effort. I appreciate that.
    Chris Treese. I don't know anybody in Colorado that is 
relied more upon, at least in western Colorado, for water 
expertise than your organization and you, frankly.
    Steve, I wish you would have been at the Spanish Peaks 
dedication. Your name was used in very complimentary fashion.
    And, Abigail, I want you to note that your compliments on 
the Spanish Peaks, that gentleman right there, Steve Smith, had 
a lot to do with it over time. And I want to just publicly 
commend you as you were recognized appropriately at the Spanish 
Peaks dedication.
    And Tom, I continually am appreciative of the efforts you 
make to make this work. I know that the Army National Guard, 
the helicopter landings, the water issues all of that. So all 
four of you have been involved in a very intricate fashion in 
putting this bill together, and I appreciate that courtesy.
    So why don't we go ahead, Commissioner Martin. Why don't 
you begin, and you may proceed.

 STATEMENT OF JOHN MARTIN, GARFIELD COUNTY COMMISSIONER, STATE 
                          OF COLORADO

    Mr. Martin. Thank you, Mr. Chairman. I appreciate it. I 
also am humbled by the opportunity to participate in today's 
hearing, especially in light of current events facing our 
world.
    My subject of discussion is an area in Garfield and Eagle 
Counties of Colorado. Deep Creek Canyon is truly a wilderness 
in its purest form spanning over 8,000 acres. For Garfield 
County with a population of 43,000, a land border of 2,957 
square miles, or approximately 1,892,000 plus acres, which, I 
might add, 1,134,000 acres are federally controlled land, and 
also with the history of peoples' conservative approach to land 
use, the consideration of another 8,000 acres of federally 
controlled wilderness may sound almost unbelievable, but as 
Chair of the Board of County Commissioners of Garfield County 
and the spokesperson for the towns and cities of Garfield 
County, I ask you, hear our unified voice. Deep Creek is a 
canyon unmarred by man or machine.
    Deep Creek is just that, a nearly inaccessible canyon of 
unbelievable beauty, and a canyon, when viewed from its rims, 
which rings true as wilderness. The few roads on the fringe 
allow access by cavers, four-wheel-drive vehicles, hikers, 
horse riders, photographers, naturalists and snowmobile riders. 
The canyon is heavily wooded with very rugged carved limestone 
walls, and only the bravest hikers find themselves in the lower 
trail.
    Garfield and Eagle County citizens are not the only people 
aware of Deep Creek Canyon's wilderness qualities. The public 
lands Committee for the Colorado Counties, Inc., a nonprofit 
statewide organization of Colorado county commissioners with 
membership in 61 of the statewide 64 counties of Colorado 
support the Deep Creek Wilderness, as does the Colorado River 
Conservation Commission, the local offices of BLM, the U.S. 
Forest Service, Division of Wildlife, our State 
representatives, and our State senator.
    Also, I might add that a large landowner adjoining Deep 
Creek also supports the wilderness designation.
    The approach that Garfield and Eagle County took to present 
this request for its proper title for Deep Creek was to take a 
single area, review the qualities and the size, seek the input 
of our citizens to see if there was public interest, to allow 
each local government to ask questions and supply the needed 
support before moving forward. The next step was to involve the 
users and the landowners, gaining their input and support. 
Finally, we consulted with the resource managers, the 
protectors, the users, and gathered their support to present to 
our local Representative, Congressman Scott McInnis, to allow 
him and his staff to review the findings and have him help us 
seek the proper title for Deep Creek Canyon.
    Now we ask you to support this proper title and proclaim 
Deep Creek Canyon as a wilderness. Thank you.
    Mr. McInnis. Thank you, Commissioner.
    [The prepared statement of Mr. Martin follows:]

Statement of John Martin, Commissioner, Garfield County Board of County 
               Commissioners, Glenwood Springs, Colorado

    I appreciate the opportunity to participate in this hearing today, 
especially in light of the current events facing our world.
    My subject of discussion is an area in Garfield and Eagle Counties, 
of Colorado. The area, Deep Creek Canyon, is a true wilderness in the 
purest form, spanning over 8000 acres.
    For Garfield County, with a population of 43,000, a land border of 
2,957 square miles or approximately 1,892,209 acres, of which 1,134,373 
acres are Federally controlled lands, as well as our people's 
conservative approach to land use, the consideration of another 8000 
acres of Federally controlled Wilderness may sound unbelievable. But, 
as chair for the Board of the County Commissioners and the spokesperson 
for the towns and cities of Garfield County, I ask that you hear our 
unified voice. Deep Creek is a canyon unmarred by man or machine. Deep 
Creek is just that, a nearly inaccessible canyon of unbelievable 
beauty, and a canyon, when viewed from its rims, which rings true as 
Wilderness. The few roads on the fringes allow access by cavers, four-
wheel drive vehicles, hikers, horse riders, photographers, naturalists, 
and snowmobile riders. The canyon is heavily wooded with very rugged 
carved limestone walls. Only the bravest of hikers try to follow the 
canyons lower trail.
    Garfield and Eagle County citizens are not the only people aware of 
Deep Creek Canyon wilderness qualities. The Public Lands committee for 
Colorado Counties inc., a nonprofit statewide organization of 
Colorado's county commissioners, with membership in 61 of the 64 
counties of Colorado, supports Deep Creek Wilderness, as does the 
Colorado River Commission, local offices for the Bureau of Land 
Management, Forest Service, and Division of Wildlife, our local State 
Representatives and State Senator. The large landowner adjoining Deep 
Creek also supports the Wilderness designation.
    The approach Garfield and Eagle Counties took to present this 
request for its proper title for Deep Creek, was to take a single area, 
review the qualities and size, seek input from our citizens to see if 
there was public interest, allow each local government to ask 
questions, and supply the needed support before moving forward. The 
next step was to involve users and landowners, gaining their input and 
support. Finally, we consulted the resource managers, protectors, and 
users, gathering their support to present to our local representative, 
Congressman Scott McInnis, allowing him and his staff, to review the 
findings and have him help us seek the proper title for Deep Creek 
Canyon. Now, we ask you to support this proper title and proclaim Deep 
Creek Canyon as a Wilderness.
    Thank you.
                                 ______
                                 
    Mr. McInnis. We are going to go ahead and go through the 
whole panel, then open it up to the Committee for questions.
    Mr. Treese, again, thank you for coming. You may proceed.

STATEMENT OF CHRISTOPHER J. TREESE, EXTERNAL AFFAIRS, COLORADO 
               RIVER WATER CONSERVATION DISTRICT

    Mr. Treese. Thank you, Mr. Chairman. I am here today to 
express support for H.R. 2963 on behalf of the Colorado River 
Water Conservation District as a water policy body. I am here 
principally to speak to the water-related aspects of the bill.
    However, I want to begin by expressing the board's 
appreciation for your approach to a single area wilderness 
legislation that allows each of the particular values and 
concerns associated with the wilderness area to be addressed 
within the legislation.
    We also appreciate, and the board wanted me explicitly to 
recognize, your prerequisite for local support before 
considering designation legislation for new wilderness areas. 
Deep Creek Wilderness proposed is not a headwaters wilderness 
area, as has been the typical practice of wilderness areas 
within Colorado. There are, as has been mentioned, both 
conditional and perfected, that is, both existing and planned, 
water development facilities upstream from the proposed 
wilderness area. As such, careful and explicit language in this 
bill is necessary to protect the property values associated 
with those historical water rights.
    H.R. 2963 has that language. We are very pleased with the 
approach that you have taken, Mr. Chairman, in that language. 
However, we also recognize that the legislative process is a 
dynamic process, and there have, in fact, historically been 
several approaches to resolving water-related issues. And we 
pledge our continued support to you as well as the rest of the 
delegation and the Congress to continue to work on the water-
related legislative language so that both water users, present 
and future, and the wilderness values can be protected.
    Mr. McInnis. Thank you, Mr. Treese. I appreciate it.
    [The prepared statement of Mr. Treese follows:]

 Statement of Christopher J. Treese, External Affairs, Colorado River 
        Water Conservation District, Glenwood Springs, Colorado

    I want to thank Chairman McInnis for this opportunity to share the 
Colorado River Water Conservation District's views regarding H.R. 2963, 
the Deep Creek Wilderness Act.
    The Colorado River Water Conservation District (``River District'') 
is the principal policy body for the Colorado River within Colorado. We 
are a political subdivision of the State of Colorado responsible for 
the protection and development of the Colorado River basin's water 
resources to which the State of Colorado is entitled under the 1922 and 
1948 Colorado River compacts. The River District includes all or part 
of 15 counties in west-central and northwest Colorado, including the 
entirety of both Garfield and Eagle Counties in which the proposed Deep 
Creek wilderness area resides.
    Colorado River water is a scarce natural resource subject to 
greater demands than supplies. As such, western water concerns have 
been a major stumbling block for past wilderness legislation. 
Historically, the protection of water resources in wilderness 
legislation has taken a variety of forms, but water concerns have 
consistently, and often significantly, delayed or completely thwarted 
passage of previous wilderness legislation. This has been the history 
of Colorado wilderness legislation despite the fact that the vast 
majority of Colorado's wilderness areas, to date, have been headwater 
areas and therefore not subject to the range of water-related concerns 
that are associated with downstream wilderness areas.
    Simply put, downstream wilderness designations not only preclude 
water development within the designated area, but conspicuously 
threaten all upstream water development potential unless precise water 
language is included in the enacting legislation.
    The River District commends Chairman McInnis for his approach to 
address potential wilderness areas individually. The fact is that each 
prospective wilderness area has unique qualities which may qualify it 
for wilderness designation; concurrently, each area also has unique 
concerns associated with wilderness designation. We concur with the 
chairman that these area-specific concerns are best resolved through 
discrete area wilderness legislation. We note the relatively swift 
passage of the chairman's Spanish Peaks, Colorado Canyons and Gunnison 
Gorge wilderness bills as evidence of the success of this legislative 
formula. We also commend Congressman Udall's employment of this 
approach to protect the James Peak wilderness area.Further, the River 
District expresses its appreciation to the chairman for his steadfast 
prerequisite that any proposed wilderness area have demonstrated local 
support prior to wilderness legislation. While we recognize that 
federal wilderness areas are a national treasure, the fact is that 
wilderness areas have disproportionate impacts, both beneficial and 
adverse, to the local economy and to those neighboring the proposed 
areas.
    Our specific concerns with the proposed Deep Creek wilderness 
include protection of water resources and water rights. In the Deep 
Creek area, there are both perfected and conditional water rights 
upstream of the proposed wilderness area. That means that both existing 
water uses and planned future uses that are not yet developed lie 
upstream of the proposed wilderness boundaries. In fact, the River 
District is the owner of a couple of those conditional rights, which we 
hold in trust for present and future water users in Western Colorado. 
Wilderness designation immediately downstream of these existing 
property rights, without carefully crafted language to protect them, 
would have a chilling effect on their development potential and 
economic value. This is especially true of a proposed area such as Deep 
Creek whose wilderness values are predominantly defined by the water 
resource itself.
    H.R. 2963, as introduced, includes wilderness boundaries that have 
been carefully crafted to exclude current water development features 
such as existing dams, diversions, and canals. Nevertheless, a 
wilderness area immediately downstream of existing or planned water 
developments presents clear operational and political challenges unless 
those rights are specifically recognized in the enabling legislation. 
The current language of H.R. 2963 does this.
    The River District has been working with the chairman's office on 
water-related solutions for a proposed Deep Creek wilderness 
designation for some time. We strongly support the water language of 
H.R. 2963 as introduced. However, we also understand the dynamic nature 
of the legislative process and pledge to continue our efforts to 
resolve water resource and water rights concerns to the mutual 
satisfaction of both Western Colorado water users and the proposed Deep 
Creek wilderness area.
                                 ______
                                 
    Mr. McInnis. Mr. Smith, you may proceed.

       STATEMENT OF STEVEN W. SMITH, ASSOCIATE SOUTHWEST 
    REPRESENTATIVE, SIERRA CLUB, REPRESENTING THE COLORADO 
                       WILDERNESS NETWORK

    Mr. Smith. Thank you, Mr. Chairman and members of the 
Subcommittee, for this opportunity to discuss a well-deserved 
wilderness protection for the Deep Creek area near my home in 
Glenwood Springs, Colorado. My name is Steve Smith. I am 
associate Southwest regional representative for the Sierra 
Club, speaking today on behalf of the entire organization and 
the other members of the Colorado Wilderness Network, a 
coalition of 300 environmental groups, businesses and local 
governments who support the statewide citizens wilderness 
proposal, which includes Deep Creek. A list of those supporters 
is included in the Committee members' materials. I have also 
provided letters from an adjacent landowner, two professional 
Deep Creek outfitters, and three local governments expressing 
their support for a larger Deep Creek Wilderness.
    We appreciate your introduction of this legislation, Mr. 
Chairman, that will protect the remarkable beauty, the 
distinctive geography and the remote ruggedness of this true 
wilderness. Your personal familiarity with the area and your 
appreciation of that beauty are key to helping Congress 
understand the significance of the place and how overwhelmingly 
suitable it is for addition to the National Wilderness 
Preservation System. Meanwhile your ability and willingness to 
consider diverse points of view and then help bring them 
together into mutually agreeable legislation has helped secure 
wilderness designations at Blackridge Canyon, Spanish Peaks, 
and soon, we hope, at James Peak, all in Colorado.
    We need your assistance again, Mr. Chairman, to rework H.R. 
2963 into legislation that will preserve the striking beauty of 
the Deep Creek area while protecting the interests of those who 
live and work nearby, and without diminishing the foundation 
protections provided by the Wilderness Act itself.
    I respectfully submit that this bill in its current form 
does not quite accomplish all three of those things. Several 
portions of H.R. 2963 seem to restate existing law or to 
confirm existing administrative documents. Some of the bill's 
provisions on wilderness management, rights of way, motor 
vehicle use, grazing, and water and other topics are in some 
cases a little confusing, at least to my limited understanding, 
and in others may actually conflict with the specifics of 
existing law or contracts. These portions should either use 
more precise references to that existing documentation or be 
removed from the bill in favor of relying on those sources 
directly.
    Today I would like to highlight three specific concerns 
about the bills provisions: wilderness size, water, and 
aircraft overflights. Deep Creek's gorge and cascading streams 
are the most immediately apparent highlights and attractions of 
the proposed wilderness, and preservation of that gorge is 
certainly paramount. There are other lands, however, and 
streams that cross them that both help protect these salient 
features and complete a true composite of wild landscape around 
them. The uplands north and south of the central canyon rim as 
well as the rolling meadows and ledges farther upstream to the 
west where there is no obvious rim also need to be included in 
this wilderness and can be without compromising nearby 
nonwilderness uses.
    In any case, we believe that the size of Deep Creek 
Wilderness described in the bill is inadequate to properly 
protect the area, or, in the upper regions, to provide a clear 
and manageable boundary. We have several suggestions for 
obviously expanding and, we think, improving that detail.
    Water and water rights are also sensitive topics in 
Colorado, no more so than in the context of wilderness 
designation. In Deep Creek we believe there is a version of 
water rights language that can be negotiated in order to assure 
reliable protection for the lifeblood of this new wilderness, 
while assuring continued beneficial use of water. We believe 
specifically that the express denial of water rights protection 
for the wilderness as included in the current version of H.R. 
2963 does not accomplish that dual goal, and we will oppose 
such a denial.
    Other details of the bill's water rights provisions also 
need refinement. We would be very pleased to work with you, 
with the river district and with others to reach agreement on 
changes to those.
    Our coalition understands the need to maintain a well-
equipped and well-trained citizen military, and we support 
reasonable use of public lands for military exercises. At the 
same time, a wilderness designation must recognize and preserve 
this area as a place without the structures or motorized 
activities of any human endeavor, except in the case of utmost 
and short-term emergency, as provided in the Wilderness Act, in 
agency regulations on wilderness management, and in the 
National Guard memorandum itself.
    Specifically, military and other airborne activities over 
Deep Creek should indeed stay over Deep Creek and must not 
include landings inside the designated wilderness or motorized 
travel across the land inside the wilderness. We believe that 
other narrow steep canyons nearby, areas also included in the 
memorandum of understanding, can provide similarly challenging 
training opportunities.
    Again, it is a pleasure to be engaged in this effort to 
secure the recognition and protection of the outstanding 
natural wonder that is Deep Creek. My enthusiasm for this 
effort is enhanced by the fact that our own Congressman and 
Chairman of this key Subcommittee has decided to help with this 
effort. In these days of fear and necessary courage in the face 
of some abominable human behavior, the solace of wilderness, 
even the knowledge that it is out there preserved, is a key 
part of our personal and national well-being.
    Places like Deep Creek are the essentials of America the 
Beautiful, a land that justifiably increases our pride and our 
collective will to make the world a better, safer place.
    Thank you again, Mr. Chairman and members of the 
Subcommittee, for joining in this good work in behalf of 
American wilderness.
    Mr. McInnis. Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]

Statement of Steven W. Smith, Associate Regional Representative for the 
       Sierra Club, on behalf of the Colorado Wilderness Network

    Thank you, Mr. Chairman and members of the Subcommittee, for this 
opportunity to discuss well-deserved wilderness protection for the Deep 
Creek area near my home in Glenwood Springs, Colorado.
    My name is Steve Smith, and I am Associate Southwest Regional 
Representative for the Sierra Club in Colorado. I am speaking today on 
behalf of my organization and the other members of the Colorado 
Wilderness Network, a coalition of 300 environmental groups, 
businesses, and local governments who support additional wilderness 
designations, including Deep Creek, in our state.
    The Steering Committee for the Colorado Wilderness Network is 
composed of representatives from Colorado Environmental Coalition, 
Colorado Mountain Club, Sierra Club, The Wilderness Society, and 
Western Colorado Congress.
    We appreciate the Chairman's introduction of legislation that would 
protect the remarkable beauty, distinctive geography, and remote 
ruggedness of this true wilderness. His personal familiarity with the 
area and his appreciation for its beauty are key to helping other 
Members of Congress understand the significance of the place and how 
overwhelmingly suitable it is for addition to the National Wilderness 
Preservation System.
    I have enjoyed a career of twenty-six years in environmental policy 
and advocacy, including twelve years of service as Senior Congressional 
Assistant to Congressman David Skaggs of Colorado. During that time, I 
enjoyed working with Congressman McInnis and his staff on field 
research, citizen negotiations, and legislative drafting that resulted 
in wilderness designations for many spectacular parts of Colorado. The 
most recent success that came from that time was celebrated just over 
two weeks ago when the Chairman dedicated the new Spanish Peaks 
Wilderness in southern Colorado.
    We are now anticipating House action on another measure that will 
protect much of the James Peak roadless area, along the Continental 
Divide, as wilderness, another measure that the Chairman helped make 
possible.
    I mention these efforts and these particular areas because they 
represent many months of discussions, negotiations, and compromise, 
facilitated by Congressman McInnis, in efforts to provide the best 
possible protection for important wildlands while attending to 
legitimate interests of nearby citizens and users of public lands.
    I believe that this same spirit of negotiation and patient 
legislative creativity can produce good wilderness legislation for Deep 
Creek. I offer for the subcommittee's consideration several points that 
need particular attention in such negotiations. They include wilderness 
area size and boundaries, protection for natural water flows in 
wilderness, clarification of motorized use near the area, and a 
collection of technical clarifications.
    The first question of concern to us is the size and scope of a 
wilderness designation for Deep Creek. Over the past nearly three 
decades of citizen research and recommendations, our organizations have 
found that including the largest expanse and variety of landscape 
possible in a wilderness area is important to preserving the more 
obvious natural features of the area.
    In the case of Deep Creek, the deep gorge and cascading stream are 
the most immediately apparent highlights and attractions of the 
proposed wilderness, and preservation of that gorge certainly is 
paramount, as the Chairman has often pointed out. There are other 
lands, and streams that cross them, that both help protect those 
salient features and complete a truly comprehensive example of wild 
lands protection.
    The uplands north and south of the canyon rim through the area's 
midsection, as well as rolling meadows and ledges farther upstream to 
the west also need to be included in this wilderness because they are 
integral to its ecological health and, in the case of the portions 
upstream of the gorge, do not include an obvious canyon rim to serve as 
their boundaries.
    The Colorado Wilderness Network has proposed a wilderness 
designation for Deep Creek comprising 22,000 acres. This proposal 
includes the variety of landscape I have mentioned, and it is bounded 
by easy to locate natural and human-built features. By bounding the 
area by Coffee Pot Road to the south and a national forest access road 
to the north, the wilderness is readily defined on the ground.
    Our proposal specifically leaves out of wilderness roads that are 
actively used for motorized travel, including the boundary roads and 
several spur routes that lead to canyon overlooks and camping sites. It 
also leaves out of wilderness, and so open to ready access, existing 
water diversion structures and routes that lead to them.
    In recent weeks, our staff and volunteers have met with owners of 
private property adjoining the Deep Creek area, with motorized 
recreationalists, and with backcountry outfitters permitted to work in 
and near the area, as well as biologists who understand the dynamics of 
the greater Deep Creek ecosystem. As a result, we have learned of 
several opportunities to modify our proposed boundaries in order to 
accommodate uses incompatible with wilderness while still designating 
key parts of the uplands and upstream meadows. We have, in turn, 
secured support from these owners and users for our modified proposal.
    In any case, we believe that the size of a Deep Creek wilderness 
described in H.R. 2963 is inadequate to properly protect the area, even 
for a so-called rim-to-rim designation. The area needs to be larger to 
properly protect the wilderness resource and to afford functional 
boundaries.
    We will be very pleased to work with the Chairman and other members 
of the subcommittee, and their staffs, to review the details of these 
field investigations and conversations in order to craft a wilderness 
boundary mutually acceptable to all involved.
    Water and water rights are always sensitive topics in Colorado, no 
more so than in the context of wilderness designations. In Deep Creek, 
we again encounter the sensitive and contentious discussion of water. 
As in the instance of boundaries, we believe that there is a version of 
water rights language that can be negotiated for this legislation in 
order to assure reliable protection for the lifeblood of this new 
wilderness while assuring continued beneficial use of water.
    We believe, specifically, that the express denial of water rights 
protection for the wilderness, as included in Section 5(j)(3)(A) of 
H.R. 2963 as introduced, does not accomplish that dual goal, and we 
will oppose such a denial.
    Some other particulars of the water language included in the bill 
warrant discussion. In two locations, the ``Findings'' section of the 
bill refers to water rights or facilities that are ``adjacent'' to the 
proposed wilderness. That is not a term familiar to us, as we tend to 
look at points of diversion and their attendant facilities as either 
within, upstream of, or downstream of an area. Language protecting 
continued exercise of legitimate water rights on Deep Creek or its 
tributaries is certainly appropriate in wilderness legislation. 
References to water rights or facilities that are in separate 
watersheds are not appropriate or are, at best, confusing.
    As another portion of the bill's ``Findings'' notes, it is possible 
to provide for reasonable development of existing conditional water 
rights outside the wilderness while protecting the wilderness. That 
view should be more specifically represented in the implementation 
sections of the legislation.
    In Section 5(j)(4)(B), although essentially a restatement of 
provisions already included in the Wilderness Act, is, in our view, a 
helpful assurance that new structures will not be built in the 
wilderness.
    We appreciate the Chairman's decision to consider this area 
individually for wilderness designation, thus allowing legislation to 
be crafted in response to the physical and human use characteristics 
unique to the area. This custom crafting is particularly important on 
the question of water in proposed mid-stream wilderness areas.
    However, the use in any one bill of inadequate or arbitrary water 
language, such as the express denial of wilderness water protection, 
makes more difficult negotiation of good water provisions in other 
bills.
    Colorado is blessed with a remarkable brain trust of water experts, 
legal, hydrological, and environmental. Engaging the skills and wisdom 
available in discussion of Deep Creek can provide a creative, and more 
effective, approach to water protection and management there. We enjoy, 
for example, a good working relationship with the staff and board 
members of the Colorado River Water Conservation District. We will be 
very pleased, with your permission and encouragement, to engage in 
further discussions with them in pursuit of comprehensive and 
protective water language that we might jointly present to you and the 
subcommittee.
    The bill includes in Section 5(c)(2) reference to training 
exercises by the Colorado Army (Air) National Guard, a contingent of 
which is based at the Eagle County Airport, near Deep Creek, and to a 
memorandum of understanding between the National Guard and the U.S. 
Forest Service for activities over and near Deep Creek.
    Our coalition understands the need to maintain a well-equipped and 
well-trained citizen military, and we support reasonable use of public 
lands for military exercises. Since a wilderness designation, in 
itself, does not restrict overflights of any type, including military 
flights, this provision appears to be unnecessary and could be left out 
of the legislation.
    At the same time, a wilderness designation must recognize, and 
preserve, this area as a place without the structures or the motorized 
activities of any human endeavor, except in the case of utmost and 
short term emergency, as already provided in the Wilderness Act and in 
agency regulations on wilderness management.
    Specifically, military or other airborne activities over the Deep 
Creek area must include no landings inside the designated wilderness or 
other motorized travel across the land itself. We believe that other 
narrow, steep canyons nearby, areas also included in the memorandum of 
understanding, can provide similarly challenging training 
opportunities.
    Several other points, each essentially a question of legislative 
drafting or clarification include the bill's references to management 
under the Federal Land Planning and Management Act, reference to 
ability to ``enhance'' wilderness values, and reference to provision of 
new rights-of-way across wilderness. In general, we will seek 
clarification that none of these provisions diminishes the basic 
protections found in the Wilderness Act.
    Again, it a pleasure to be engaged in this effort to secure the 
recognition and protection of the outstanding natural wonder that is 
Deep Creek. Our enthusiasm for this effort is enhanced by the fact that 
our own Congressman, Chairman of this key subcommittee, has decided to 
lead this effort.
    In these days of fear and necessary courage in the face of some 
abominable human behavior, the solace of wilderness, even the knowledge 
that it is out there, preserved, is a key part of our personal and 
national well being. Places like Deep Creek are the essentials of 
America the Beautiful, a land that justifiably increases our pride and 
our collective will to make the world a better, safer place.
    As naturalist and guide Sigurd Olsen said some fifty years ago, 
``Wilderness to the people of America is a spiritual necessity, an 
antidote to the high pressure of modern life, a means of regaining 
serenity an equilibrium.''
    Perhaps more than at any other time, that observation is relevant 
and true.
    Thank you again, Mr. Chairman and members of the subcommittee, for 
joining in this good work on behalf of American wilderness.
                                 ______
                                 
    [Attachments to Mr. Smith's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 75726.002
    
    [GRAPHIC] [TIFF OMITTED] 75726.003
    
    [GRAPHIC] [TIFF OMITTED] 75726.004
    
    [GRAPHIC] [TIFF OMITTED] 75726.005
    
    [GRAPHIC] [TIFF OMITTED] 75726.006
    
    [GRAPHIC] [TIFF OMITTED] 75726.007
    
    [GRAPHIC] [TIFF OMITTED] 75726.008
    
    [GRAPHIC] [TIFF OMITTED] 75726.009
    
    [GRAPHIC] [TIFF OMITTED] 75726.010
    
    [GRAPHIC] [TIFF OMITTED] 75726.011
    
    Mr. McInnis. Commissioner, I want you to know that 10 years 
ago or so, at the urging of some of the county commissioners 
then, I took my first overflight to talk about wilderness on 
Deep Creek and so on. So the commissioners of Eagle County have 
been very consistent in their attention to this in now well 
over a decade for attention on that, and you have certainly 
carried it forward. I appreciate it.
    You may proceed.

STATEMENT OF TOM C. STONE, EAGLE COUNTY COMMISSIONER, STATE OF 
                            COLORADO

    Mr. Stone. Thank you, Mr. Chairman. And thank you, members 
of the Committee. In the interests of time, and recognizing 
that brevity is appreciated, I am not going to share with you 
my--or speak my written testimony. I have submitted it. I would 
like to sum it up, though, and I really would like to focus on 
one very, very, very key issue, and that is the Army National 
Guard.
    I spoke with the professional, Colonel Joel Best, right 
before I came out here and asking Colonel Best what his 
concerns were. And he reiterated to me, as I am sure that he 
has shared with you, Mr. Chairman, the necessity of having--to 
be able to continue operations as they have operated in the 
past in Deep Creek Canyon. 
    The high-altitude training site is a world-renowned site. I 
have seen pilots in there from Norway, Sweden, from all sorts 
of countries throughout the world, plus, of course, the United 
States, coming there for high-altitude training that they do 
not get anywhere else in the world. This is a truly unique 
facility.
    In recognition of that, within the last 6 months, Eagle 
County just signed an 80-year lease for a dollar a year for a 
substantial portion of the Eagle County Regional Airport with 
the Army National Guard. That should give you an indication of 
our commitment. Not only do they provide training, but they 
provide search and rescue efforts for the entire western slope 
of Colorado. And Colonel Best said to me very simply, 
Commissioner Stone, if we don't have those training 
opportunities that the canyon provides for us, we are just not 
going to be able to provide the service that we have provided 
in the past. There are other areas that they do use, but other 
areas do not provide them with the training opportunities that 
they have there. And Colonel Best did go on to tell me that he 
was sure that some of the pilots that he has trained personally 
will be in operations over in Afghanistan.
    So I will end my testimony to give you some time to ask 
some questions. Thank you.
    Mr. McInnis. Thank you, Mr. Commissioner.
    [The prepared statement of Mr. Stone follows:]

 Statement of Tom C. Stone, Eagle County Commissioner, Eagle, Colorado

    Thank you Mr. Chairman and members of this Committee for the 
opportunity to speak in support of designation of certain lands as the 
Deep Creek Wilderness Area. Almost 86% of my County is publicly owned 
lands. As a Commissioner in Eagle County, I take my job as a 
responsible steward of these lands very seriously. Our County is home 
to world famous Vail ski area. As a result of our many recreational 
opportunities and incredible mountain vistas, we are also one of the 
fastest growing counties in the nation. As a board of County 
Commissioners, we constantly strive to strike a balance between 
responsible use of our lands and protection where warranted. Following 
the concept of multiple use of the Federal lands in Eagle County, we 
believe that the wise use of some property should be geared more 
towards active recreation. Other lands warrant a more passive use and 
the ultimate designation of Wilderness. Properly defined and regulated, 
Deep Creek affords a unique opportunity for almost all stakeholders to 
agree on this most protective establishment of Wilderness.
    The Eagle County Board of Commissioners and the Garfield County 
Board of Commissioners both passed a resolutions unanimously that read 
in part, ``Deep Creek has met the definition of wilderness by its 
scenic and ruggedly remote limestone canyon, which is up to 3,000 feet 
deep. It contains more than 40 caves, including Colorado's largest 
known cave. Deep Creek provides a pristine stream, lined with high-
quality blue spruce, Douglas fir, and Red-Osier dogwood habitat, and is 
home for deer, elk, mountain lion, bald eagle, peregrine falcon, 
northern goshawk, Townsend's big-eared bat, round-tail chub, numerous 
songbirds and raptors''. The Resolution goes on to say, ``the proposed 
wilderness designation which is being supported herein includes the 
area contained rim to rim of Deep Creek totaling approximately 8,450 
acres of which 2000 acres are in Eagle County and 6,450 acres are in 
Garfield County''. The area that my board supports is one that is truly 
rugged and has very limited signs of the influence of man.
    One of the most notable features of this proposed designation is 
something other than the property itself. The feature that I refer to 
is the process that Congressman McInnis used to craft this Bill. 
Congressman McInnis solicited a broad range of local input from County 
commissioners, private property owners, the Colorado River Water 
Conservation District, environmental groups and other stakeholders 
before submitting this Bill. Too many times we have seen just the 
opposite where someone will offer a Bill first and ask questions later. 
Congressman McInnis should be commended on his commitment to local 
input, which has resulted in a thoughtful bill that combines the goals 
of local officials with environmental initiatives. This truly 
collaborative process has resulted in a bill that is ready for speedy 
passage with little or no change necessary. Trusting in the Forest 
Service's RARE II survey, which indicates a Roadless Area of 11,060 
acres, and adjusting to protect private property and water rights, the 
boundaries that Congressman McInnis has proposed are appropriate. 
Permitted use by the Colorado Army National Guard, adherence to 
Colorado Water Law and the requirement of no Buffer Zones are all 
essential features of this Bill. Without these requirements our board 
could not support this legislation. Congressman McInnis has met the 
needs and all requirements necessary to satisfy us that all proper 
safeguards have been met.
    I urge this Committee to pass this legislation as presented. Overly 
extended discussion will only serve to endanger these lands from ever 
gaining the designation that they deserve. Thank you for your time and 
public service to the great needs of this great nation.
                                 ______
                                 
    [An attachment to Mr. Stone's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 75726.013
    
    [GRAPHIC] [TIFF OMITTED] 75726.014
    
    Mr. McInnis. In light of that, we will go ahead and go 
straight to questions from the panel.
    Mr. Inslee.
    Mr. Inslee. Thank you. I just want to open a question to 
anyone who can answer it. As far as water rights, could you all 
give us some description of what you perceive to be the 
existing right to use water and how that would be affected by 
this bill, and in real terms. In other words, is there an 
acrefeet that could be used for irrigation now, but would not 
under this bill? Is there a flow regimen required by some, you 
know, legal challenge or otherwise? Just give us a real-world 
feeling of what would change under this bill and what we should 
be thinking about.
    Mr. Treese. Thank you, Mr. Inslee. Chris Treese.
    There are both existing water rights upstream and adjacent 
to this wilderness area that rely on Deep Creek for their water 
supply. There are also planned water facilities that have what 
is called in Colorado a conditional water right, which 
essentially serves as a placeholder in our priority system.
    There is also a third element of water rights to understand 
as a baseline in answer to your question; that is, an in-stream 
flow right held by the State, held by the Water Conservation 
Board, as mentioned by Ms. Kimbell, that protects the in-stream 
or free-flowing values of Deep Creek.
    The concern, to answer your question, about wilderness 
designation if it were not to have explicit recognition of the 
existing water rights, both perfected and conditional, is that 
you end up with a--at least, at the very least, a very 
difficult political situation to try and permit those future 
water facilities upstream of a wilderness area. By their nature 
they have some depletive effect upon the stream itself, and 
some will argue that any depletive impact will irreparably harm 
the wilderness values for which the wilderness was recognized, 
again, unless the wilderness language, the enabling 
legislation, does not explicitly recognize that, and the 
Congress basically have said these can be accommodated and 
still have those wilderness values.
    Mr. Inslee. Does some entity today have an in-stream flow 
water right? If so, who is that?
    Mr. Treese. Yes, sir. It is the State of Colorado. The 
State of Colorado within the State is the only entity that is 
legally allowed to hold a water right for free-flowing water 
purposes. They do have a water right. It is, I believe, for 14 
cubic feet per second in the summertime and 8 cubic feet per 
second in the wintertime.
    I would add that I have not heard anybody suggest in any of 
the discussions that I have had that that is not adequate for 
the wilderness or--for the Deep Creek stream system, the 
environmental system.
    Mr. Inslee. Well, even without a designation in the bill, 
those water rights would be protected, would they not, even 
without a specific statement that those water rights are not 
abrogated or expanded or contracted?
    I am trying to figure out, why do we have to address that 
issue? Aren't those water rights, to extent they exist, vested, 
legally recognized?
    Mr. Treese. I think if you are only referring to the 
existing water rights that are--that have already been 
developed, both the in-stream flow right and the existing water 
rights for which facilities are already developed, you are 
probably correct. However, the need to change the operation of 
the facility forever into the future cannot be determined at a 
given point in time. The principal concern is for the 
conditional water rights, that is, for the water rights for 
facilities that are planned to be developed, but not yet 
developed, and a protection for those water rights and a 
recognition that these water rights, once developed, will have 
a depletive impact on Deep Creek.
    Mr. Udall of Colorado. Will the gentleman yield?
    Mr. Inslee. Sure.
    Mr. Udall of Colorado. In Ms. Kimbell's testimony, Mr. 
Treese, she said that the conditional water rights upstream 
from the proposed wilderness far exceed the estimated average 
flow, the estimated high flows, and even the observed peak flow 
on this stream. Do you agree with her estimates?
    Mr. Treese. I am adding up quickly in my head. I am not 
sure that I do. I believe that they may--the Forest Service 
testimony and statement may include conditional water rights by 
a company called Rocky Mountain Power that were only relatively 
recently abandoned and are no longer on the table so--the State 
table of water rights. That removed between 110 and 190 cubic 
feet per second from that cumulative total.
    Mr. Udall of Colorado. So is it or isn't it accurate to say 
that development of these conditional water rights would mean 
or could mean that part of Deep Creek in the wilderness area 
could be completely dewatered, at least part of the time?
    Mr. Treese. I don't know that to be true or false. I am 
sorry. I would be happy to follow up with you and look at both 
the stream data. There is not a gauging station, to my 
knowledge, on Deep Creek. So we would have to do some synthetic 
data trying to figure out exactly what the--using the existing 
stream gauges where they exist to come up with a reasonable 
estimate of how much water Deep Creek contributes to the 
Colorado River System, and then looking at these conditional 
water rights.
    Mr. Udall of Colorado. I would appreciate if you could 
provide that. I am not looking for an outcome that is 
predetermined. I think it would be very good data. I thank the 
gentleman for yielding, and I used all of his time.
    Mr. Inslee. Can I make just one comment, and go over my red 
light, if I could? It strikes me, and I can be educated on 
this, but it strikes me that we shouldn't and will not abrogate 
existing water rights by passage of wilderness designations. On 
the other hand, I don't think we want to get into situations 
that would tie future public decisionmaking of upstream flows 
to the extent that they can be considered by whatever public 
entities have to make it.
    For instance, let's assume there is 10,000 acrefeet of 
water rights that are not owned by anyone in upstream flows, 
they are open for future development, open for future 
consideration. And some public entity, and I don't know 
Colorado water law a lot, but could be involved in the 
decisionmaking of whether development takes place upstream or 
not.
    I guess I don't want to tie the hands of public officials 
to say you can't consider it, that there is a wilderness area 
downstream, in a decision of whether or not to grant rights 
that may or may not exist. And I just think that is something 
we should think about in how we structure this language.
    Thank you, Mr. Chair.
    Mr. Smith. Mr. Chairman, may I offer a couple of remarks 
being that Congressman Inslee offered it as a general question? 
Just two quick supplements to what Chris ably outlined on the 
condition of water up there.
    On the existing water rights, both conditional and 
perfected, is that those are of senior nature and ought to be 
maintained. And our boundaries and our proposal leave those out 
and available for continued operation. We just want to be sure 
that the Federal managers of the new wilderness also have a 
water right at the table in Colorado water rights negotiations 
to compare and negotiate with the other folks who hold the 
water rights.
    The second quick point I would make is that the Colorado 
Water Conservation Board, the designated holder typically of 
in-stream flow rights in Colorado, has as a definition for its 
in-stream flow rights one that is completely different than the 
purposes of wilderness. It is a different set of principles 
that basically provide sufficient flow for fish life, fish to 
live. It is more complicated than that, obviously, but it does 
not take in the complex range of water purposes and water 
benefits in a wilderness area. And so we believe that water 
protection for the wilderness needs to go well beyond what the 
State already has in place. Thanks very much.
    Mr. McInnis.  Let me point out a couple of things. First of 
all, remember that this legislation is unique.
    Let me step back. The Colorado water law is unique and very 
complicated. This is unique, this particular bill, in that we 
are talking downstream and not headwaters; and of course, the 
fear is, any time you put a wilderness downstream, the Federal 
Government, which they did through--Judge Kane, in about 1986, 
I think it was about 1986, said that the Government, even 
though it was never mentioned, had water rights which impacted 
everybody that was utilizing water, especially anybody that was 
junior, or in a case like this, anybody that was upstream.
    You could very well into the future have a Federal judge 
just like Judge Kane say, Hey, the Federal Government has water 
rights that are downstream; and therefore not just the quantity 
but the quality of the water, the temperature, et cetera, et 
cetera, and they could have a huge impact on every water right 
above it.
    That is the big fear in Colorado, and I have made it very 
clear as a condition of any type of wilderness, at least that I 
have any leverage over, has to meet two elements. One, it has 
got to have local support. I think that is reflected here; and 
two, it has got to have a water right sign-off, because when 
you are dealing with the wilderness areas that are not the 
headwaters, you are dealing with a very complicated subject and 
that is why the river district--and the river districts have 
had a number of meetings on this, lots of debate on this, and 
their sign-off was absolutely critical.
    So if we proceed to try and negotiate something further and 
we lose the sign-off of the Colorado River district, we lose 
the bill. It is that simple, and that is how critical the water 
issue is.
    Mr. Smith. Mr. Chairman, I would be pleased to note that we 
have been visiting with members of the river district board and 
with their staff in an attempt to come up with a composite of 
wilderness water rights provisions that will be acceptable to 
them and still protect the characteristics of wilderness for 
which this designation is intended; and we are very pleased to 
continue working with the district in those kinds of 
negotiations so, as you say, they sign off on something that 
works for both purposes.
    Mr. McInnis.  That is right, Mr. Smith. That sign-off is 
critical for the life of this legislation, so to speak.
    Do we have any further questions by any members of the 
panel?
    Mr. Udall of Colorado. Mr. Chairman, thank you, and I would 
add my support to the remarks you made about the challenge we 
face when we have downstream wilderness areas. And there is a 
whole series of court cases that have tried to deal with this 
in a way that treats everybody fairly, and we continue to have 
to respond to the new situations that arise.
    Chris, just to pursue this a little further, I think it is 
important to have all of this on the record. Isn't it accurate 
that the United States already has a water right for national 
forest purposes, so what we are talking about is whether there 
should be some new right in Deep Creek?
    Mr. Treese. I am not aware of a Forest Service water right 
in Deep Creek.
    Mr. Udall of Colorado. I think there are for the national 
forests in general. Is that your understanding?
    Mr. Treese. That has been litigated on a forest-by-forest 
basis is my understanding, and there have--they have found a 
limited appropriative reserve right for the forest, not a 
reserve right for an in-stream flow or a free flowing flow of 
the river, a water right.
    Mr. Udall of Colorado. So, in effect, we are still 
discussing here today whether there ought to be a new right 
although there is already this existing position that the 
Forest Service holds?
    Mr. Treese. I believe that is what we are discussing.
    Mr. Udall of Colorado. What is the old saying? Whiskey is 
for drinking and water is for fighting over.
    I think in the great State of Washington they don't have 
that problem. So we should invite my colleague, Mr. Inslee, to 
Colorado and have him spend some additional time. Although he 
did have a great backpacking trip in Congressman McInnis's 
district last summer up in the Maroon Bells Wilderness, so he 
has firsthand experience.
    I am looking at my list of questions here. Back to Ms. 
Kimbell, she suggested the bill should be amended so the Forest 
Service, working with the Water Conservation Board, has the 
opportunity to protect the critically important water and flow-
dependent resource values of the proposed Deep Creek 
Wilderness. What would be your reaction to that suggestion, Mr. 
Treese? 
    Mr. Treese. Thank you. I was pleased to hear the Forest 
Service make that comment. I think that it is critical that 
whatever solution is crafted recognizes State water law and the 
ability of the State to administer whatever water solution is 
crafted. It is the State that is responsible for the 
administration of water, and if it is not a water right and 
recognized by the State, it is not an administratable water 
right.
    Mr. Udall of Colorado. Mr. Smith, I take it you might have 
a suggestion of another approach.
    Mr. Smith. We would be--we have several other approaches, I 
think, that would work in the context of this one suggestion 
that the Forest Service has made.
    We remain concerned that the Water Conservation Board has 
in place procedures and definitions and standards for the 
amount of an in-stream flow right that are based on purposes 
different from the purposes of the Wilderness Act. The Board is 
not currently capable, under its own guidelines, to hold a 
wilderness in-stream flow right. If that board were to develop 
such standards that would protect the wider range of aquatic 
and riparian needs of such an in-stream flow right, that might 
be a possibility, but there is work to be done in order to make 
the approach work.
    Mr. Udall of Colorado. I hope I didn't wade into that 
subject so far I got over my head.
    But Commissioner Martin, I want to welcome you and 
Commissioner Stone. Congressman McInnis and I have had some 
success in the James Creek area, and we worked over a number of 
months--and in my case, years--trying to reach consensus. I 
know in Garfield County you had initially opposed any new 
wilderness, and I note now, at least in this case, you have 
changed your minds or have seen an opportunity.
    Would you just talk briefly about what changed your views 
on this and whether that might hold--my goal is some 
understanding as we look at all of the proposed wilderness in 
the State of Colorado, because we have some outstanding issues 
we have got to resolve in that regard.
    Mr. Martin. All right. I think you are going on the 
assumption that was put out by the press, saying that we were 
opposed, et cetera. In fact, the press failed to report the 
other half of the story, and that was that we opposed grouping 
all wilderness together in one bill, and we said we would not 
support that type of a bill.
    We did say we would support each individual area to be 
considered and to do that, we have done, taking it through the 
public process, through our own public hearings, each community 
being involved, asking for support, and then the users as well 
as the managers. That is the approach we took.
    We do not oppose wilderness. In fact, we are very strong. I 
think Garfield County has just about the most wilderness in the 
area.
    Mr. Udall of Colorado. When you say "most wilderness," 
potential wilderness? You already have designated wilderness?
    Mr. Martin. Flat Tops Wilderness Area. We are also looking 
at an expansion of the Flat Tops Area, as well as Hack Lake and 
several other areas, the large BLM Demaree Canyon, 64,000 
acres, which is on the west end of Garfield County.
    Mr. Udall of Colorado. I know my time has expired, but so 
the press, you believe, misreported your position--and that has 
never happened to Congressman McInnis or myself--so at times it 
is difficult to make sure that the story is complete. So if 
that is the case, I look forward to working with you in this 
Committee and with your able Representative, Mr. McInnis, in 
the future.
    Thank you for taking the time to come to Washington.
    Mr. Martin. Thank you. Also thank you for putting me in the 
same group of being represented in the newspaper.
    Mr. McInnis.  Congressman Udall, I point out that both 
Commissioner Stone and Commissioner Martin have been very frank 
about the fact that this has got to go through a local vetting 
process and that they do oppose, as I think most of us in these 
types of positions on the West Slope do oppose, a package that 
you can't customize, just throwing it all into one bill; and 
that is where this opposition was reported by the media. In 
fact, both of these individuals have been commendable in the 
process that they have vetted it through.
    In fact, the way they have taken it through their 
constituent process is one that I think should be used as an 
example in other counties throughout the State, and I just want 
to point that out to reemphasize their dedication to the public 
lands, because both of them represent counties that have a 
tremendous amount of public lands, and every community in both 
of their districts is completely surrounded by public lands.
    So whether it is payment in--PILT funds, or public access 
or multiple use, these two are really very approachable, number 
one, and very educated on the issue.
    Mr. Udall of Colorado. Will the gentleman yield?
    Mr. McInnis.  Sure.
    Mr. Udall of Colorado. I appreciate those sentiments and I 
know we have debate before us about which lands deserve 
wilderness protection and which lands ought to revert to uses 
of the past; and I hope we can continue to work together, 
because we have those other challenges.
    You mentioned PILT and timber receipts in some of the 
counties in Colorado. We have health care issues that face your 
district that we would like to spend time addressing, as well 
as getting after the, I think, opportunity, but the danger that 
faces us with the condition of our forests and forest health 
challenge we face. We want to try to reduce the potential for 
these hazardous wildfires that have become more prevalent in 
the West.
    So I look forward to working with you and Chairman McInnis 
on all of these issues.
    Mr. McInnis.  I think it is important to keep in mind that 
legislation, for example, as Deep Creek, this does not come 
about as a result of the 1988 proposal. I flew over 10 years 
ago when they were trying to get me interested in putting the 
wilderness--the Eagle County commissioners and Garfield have 
had discussions on this for many years. So a lot of these 
pieces of property, it is going to take that type of vetting 
process; and if they try and shortcut that vetting process, I 
think it is incumbent upon the commissioners to say, no, not 
until our constituents have had an opportunity to really vet it 
out, as I said earlier.
    So no further questions. I want to thank the panel. 
Everyone on the panel came a long distance, and especially in 
these circumstances, where travel is pretty taxing. I 
appreciate the jobs you are doing back there. Thank you for 
coming.
    Does the panel have any further business? Seeing no further 
business, the Committee is adjourned.
    [Whereupon, at 6:11 p.m., the Subcommittee was adjourned.]
    [A letter submitted for the record by Mr. McInnis follows:]
    [GRAPHIC] [TIFF OMITTED] 75726.012
    
                                   - 

</pre></body></html>
